UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7772
GREGORY SIMMONS-BEY, a/k/a Alton Gregory Simmons-Bey,
Petitioner - Appellant,
v.
USA REPUBLIC CORPORATION ET,
Respondent - Appellee.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Raleigh. Louise W. Flanagan, District Judge. (5:19-hc-02095-FL)
Submitted: April 14, 2020

Decided: April 17, 2020

Before WILKINSON, QUATTLEBAUM, and RUSHING, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Gregory Simmons-Bey, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

uoc/mh

rtppeai; m-i f iz.

uuo: \z

rneu: u*t/ i nzvzu

rg: z 01 z

PER CURIAM:
Gregory Simmons-Bey, a state pretrial detainee, seeks to appeal the district court’s
order denying relief on his 28 U.S.C. § 2241 (2018) petition. The order is not appealable
unless a circuit justice or judge issues a certificate of appealability.

28 U.S.C.

§ 2253(c)(1)(A) (2018). A certificate of appealability will not issue absent “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the
district court denies relief on the merits, a prisoner satisfies this standard by demonstrating
that reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong. See Buck v. Davis, 137 S. Ct. 759, 773-74 (2017). When the district
court denies relief on procedural grounds, the prisoner must demonstrate both that the
dispositive procedural ruling is debatable and that the petition states a debatable claim of
the denial of a constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing
Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Simmons-Bey has
not made the requisite showing. Accordingly, we deny a certificate of appealability and
dismiss the appeal. We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
NO. 5:19-HC-2095-FL
GREGORY SIMMONS-BEY, also known
as Alton Gregory Simmons-Bey,
Petitioner,
v.

USA REPUBLIC CORPORATION ET,
Respondent.

)
)
)
)
)
)
)
)
)
)

ORDER

Petitioner, a state pretrial detainee proceeding pro se, filed the instant petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2241. The matter is before the court for an initial review
ofthe petition pursuant to 28 U.S.C. § 2243, which provides that the courtneednot seek a response
from the respondent when it is clear on the face of the petition that the petitioner is not entitled to
relief.
Petitioner is a state pretrial detainee awaiting trial on charges of trafficking opiates and sale
and delivery of cocaine. Petitioner primarily alleges certain law enforcement officers and state
prosecutors failed to “respect” his status as a sovereign citizen when they arrested and charged him
with the foregoing offenses, and that the arresting officers and prosecutors have engaged in a
vindictive and malicious prosecution. Petitioner also alleges that his custodian has failed to
provide adequate medical care, and that he sustained injuries in a motor vehicle accident caused
by the negligence of the arresting officers.
To the extent petitioner is challenging the conditions of confinement or attempting to assert
a claim for personal injuries caused by the motor vehicle accident, such claims are not cognizable

Case 5:19-hc-02095-FL Document 10 Filed 11/15/19 Page 1 of 3

in this habeas corpus proceeding. See Wilbom v. Mansukhani.__F. App’x

, 2019 WL

5856427, at *5 (4th Cir. Nov. 8, 2019); Rodriguez v. Ratledge. 715 F. App’x 261, 265-66 (4th Cir.
2017); Braddv v. Wilson. 580 F. App’x 172, 173 (4th Cir. 2014).

Similarly, to the extent

petitioner is seeking damages for malicious prosecution, the claim must be brought as a civil rights
action.

See Wallace v. Kato, 549 U.S. 384, 389-90 (2007) (discussing tort of malicious

prosecution); Evans v. Chalmers. 703 F.3d 636, 647 (4th Cir. 2012) (addressing malicious
prosecution claim brought pursuant to 42 U.S.C. § 1983). The court dismisses these claims
without prejudice.
To the extent petitioner seeks federal court intervention in his pending criminal
prosecution, petitioner has failed to show that extraordinary circumstances warrant such relief.
See Kugler v. Helfant. 421 U.S. 117, 124 (1975) (discussing limited circumstances in which
federal court may intervene in pending state criminal prosecution); Younger v. Harris, 401 U.S.
37, 54 (1971).

Petitioner must pursue his claims challenging his ongoing state criminal

proceedings in his pending criminal case, including by exhausting his state appeals, before seeking
federal habeas corpus relief. See 28 U.S.C. § 2254(b)(1); Nivens v. Gilchrist. 444 F.3d 237, 241
(4th Cir. 2006).
Finally, petitioner alleges that state authorities do not have jurisdiction to prosecute him
because he is a sovereign citizen and Moorish American national. Petitioner cannot avoid his
state criminal prosecution by declaring that he is sovereign citizen. The state court’s jurisdiction
over him is not dependent on petitioner’s national origin or descent. See United States v. Burris.
231 F. App’x 281,281 (4th Cir. 2007); United States v. Benabe. 654 F.3d 753, 767 (7th Cir. 2011)
(“Regardless of an individual’s claimed status of descent, be it a ‘sovereign citizen,’ a ‘secured2

Case 5:19-hc-02095-FL Document 10 Filed 11/15/19 Page 2 of 3

party creditor,’ or a ‘flesh-and-blood human being,’ that person is not beyond the jurisdiction of
the courts. These theories should be rejected summarily, however they are presented.”).
Based on the foregoing, the court DISMISSES the petition, and DENIES a certificate of
appealability. The court dismisses petitioner’s civil claims seeking damages without prejudice to
bring them in a civil rights action. The clerk is DIRECTED to close this case.
SO ORDERED, this the 14th day of November, 2019.

V^^DUISE W. FLANAGAN
United States District Judge

3

Case 5:19-hc-02095-FL Document 10 Filed 11/15/19 Page 3 of 3

FILED: January 10, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7772
(5:19-hc-02095-FL)

GREGORY SIMMONS-BEY, a/k/a Alton Gregory Simmons-Bey
Petitioner - Appellant
v.
USA REPUBLIC CORPORATION ET
Respondent - Appellee
V

ORDER
The court grants leave to proceed in forma pauperis.
For the Court—By Direction
/s/ Patricia S. Connor, Clerk

uourtH Mppeai:

uou:

id

rueu: uo/u^/zu^u

ry: i 01 i

FILED: June 2, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7772
(5:19-hc-02095-FL)

GREGORY SIMMONS-BEY, a/k/a Alton Gregory Simmons-Bey
Petitioner - Appellant
v.

USA REPUBLIC CORPORATION ET
Respondent - Appellee

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Wilkinson, Judge Quattlebaum,
and Judge Rushing.
For the Court
/s/ Patricia S. Connor. Clerk

4

L<ve£

FILED: June 19, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7772
(5:19-hc-02095-FL)

GREGORY SIMMONS-BEY, a/k/a Alton Gregory Simmons-Bey
Petitioner - Appellant
v.
USA REPUBLIC CORPORATION ET

RECEDED
jUL 2 0 2020

Respondent - Appellee

ORDER
Appellant seeks reconsideration of this court's denial of his petition for
rehearing.
The court denies appellant’s motion for reconsideration.
For the Court-By Direction

n

((

L
m

/s/ Patricia S. Connor. Clerk

(mwmn kwLi) I&4:: loTk,^ ^ ^

ckn \V\n (Wni

, .

i-)W Ufc No W>

Sawwiwwn \me MS .
(XW

, H Ho

C4iQpnk <4 1W

, ■■

